     Department of Homeland Security

     ��������������������������


 The Office of Financial Management’s Management 

 Letter for FY 2013 DHS Financial Statements Audit





OIG-14-75                                  April 2014

                         OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                       APR 23 2014


MEMORANDUM FOR:	                Jeffrey Bobich
                                Director
                                Office of Financial Management
                          for
FROM:	                          Anne L. Richards
                                Assistant Inspector General for Audits

SUBJECT:	                       The Office of Financial Management’s Management Letter
                                for FY 2013 DHS Financial Statements Audit

Attached for your information is our final report, The Office of Financial Management’s
Management Letter for FY 2013 DHS Financial Statements Audit. This report contains
three comments and eight recommendations related to internal control deficiencies
that were not required to be reported in the Independent !uditors’ Report on DHS’ FY
2013 Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies which are considered significant deficiencies were reported, as required, in
the Independent !uditors’ Report, dated December 11, 2013, which was included in the
Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency Financial Report.
We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The Office of Financial Management (OFM) is part of DHS. During our audit, we noted certain
matters involving internal control and other operational matters, related to OFM, that are presented for
your consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other
operating efficiencies. These matters are summarized in the Table of Financial Management
Comments on the following pages. The disposition of each internal control deficiency identified during
our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in
Appendix A. Our findings related to information technology systems have been presented in a separate
letter to the DHS Office of Inspector General, the DHS Chief Information Officer, and Chief Financial
Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                  Office of Financial Management
                             Table of Financial Management Comments

                                         September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                                         Page

FMC 13-01   Departmental Standards of Conduct                                                2
FMC 13-02   Non-Compliance with Financial Disclosure Filing Requirements and Insufficient    2
            Departmental Guidance
FMC 13-03   Non-Compliance with Federal Employees’ Health Benefits                           3



                                           APPENDIX

Appendix    Subject                                                                         Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and       5
            Recommendation (NFRs)




                                                   1

                                  Department of Homeland Security
                                  Financial Management Comments

                                        September 30, 2013




FMC 13-01 – Departmental Standards of Conduct (Notice of Finding and Recommendation (NFR)
No. Office of Financial Management (OFM) 13-01)

       During our test work over entity-level controls, we noted that DHS had not issued a Supplemental
       Standards of Conduct. Although not required, the Department, with the concurrence of the Office
       of Government Ethics, has determined the need for and developed a Supplemental Standards of
       Ethical Conduct for Employees of the Department of Homeland Security, which was published as
       a proposed rule in the Federal Register for public comment on October 12, 2011.

       The proposed regulations would supplement the Office of Government Ethics (OGE) Standards
       of Ethical Conduct for Employees of the Executive Branch, and would, among other things, set
       forth employee restrictions on the purchase of certain Government-owned property, and require
       employees to report allegations of waste, fraud and abuse. The regulations would require
       employees to seek prior approval for certain outside employment and activities, and designate
       components within DHS as a separate agency for purposes of determining whether the donor of a
       gift is a prohibited source. The comment period for the proposed rule ended on December 12,
       2011.

       Recommendation:
       We recommend that the Designated Agency Ethics Official (DAEO) complete and issue a final
       rule, as planned.

FMC 13-02 – Non-Compliance with Financial Disclosure Filing Requirements and Insufficient
Departmental Guidance (NFR No. OFM 13-02)

       During test work over financial disclosure reports at the headquarters Office of Ethics, we
       identified the following exceptions:
       •	 OGE-278 Forms: For one of the 25 samples tested, the filer did not submit the financial
           disclosure form on time in accordance with OGE filing requirements. Additionally, the form
           was not submitted within the 30 day grace period.
       •	 OGE-450 Forms: For three of the 45 samples tested, the filers did not submit the financial
           disclosure forms on time in accordance with the OGE filing requirements. Additionally, the
           forms were not submitted within the 30 day grace period.

       During our review of the Department of Homeland Security Financial Disclosure Reporting
       Policy, we noted that the policy does not include language regarding the Department’s policy for
       providing a 30 day grace period for OGE-450 filers. The Code of Federal Regulations (CFR)
       specifically provides a 30 day grace period for OGE-278 filers, but does not specify a grace
       period for OGE-450 filers.

       We noted that the DAEO has established a program to periodically review component procedures
       and implementation of the financial disclosure reporting program as required by the Financial
       Disclosure Reporting Policy. However, not all components had submitted their implementing



                                                  2

                                  Office of Financial Management
                                 Financial Management Comments

                                        September 30, 2013




      instructions to the DAEO for review and approval as required under the Financial Disclosure
      Reporting Policy. Consequently, the Headquarters Ethics Office program reviewers were unable
      to assess compliance with DAEO-approved procedures.

      During testwork over financial disclosure forms at six components, five component audit teams
      identified findings related to the component financial disclosure processes, such as untimely
      submission and review, and lack of understanding of filing requirements.

      Recommendations:
      We recommend that DHS:
      •	 Continue to work with employees to ensure they meet required financial disclosure filing
         deadlines and requirements.
      •	 Update the Department of Homeland Security Financial Disclosure Reporting Policy to
         include language regarding the Department’s policy for providing a 30 day grace period for
         OGE-450 filers, in order to clarify the filing date requirements per 5 CFR.
      •	 Ethics Office continue to track and notify individual filers of due dates, notify them if and
         when their reports are overdue, and notify component management of delinquencies so that
         appropriate measures may be taken to compel compliance.
      •	 Ethics Office also work with component ethics offices to ensure they establish and implement
         policies and procedures over their financial disclosure reporting program as required by
         Departmental policy.
      •	 Headquarters Ethics Division continue conducting assist visits for three additional operating
         components. The assist visits are planned to continue on a rotating cycle. This program,
         which has written protocols for on-site review and evaluation of component ethics programs,
         includes follow up after action assessment of program strengths and weaknesses of
         operational component ethics programs, identification of best practices and recommendations
         for program improvements.

FMC 13-03 – Non-Compliance with Federal Employees’ Health Benefits (NFR No. OFM 13-05)

      U.S. Coast Guard’s (USCG or Coast Guard) controls over Federal Employees’ Health Benefits
      (FEHB) for civilian employees were not fully effective during fiscal year (FY) 2013 to ensure
      that FEHB contributions are paid in accordance with employee elections. Specifically, during
      testwork over compliance with various Human Resource laws and regulations, we noted that for
      one USCG sample of the 64 samples tested on a Department-wide basis, FEHB payments were
      not properly paid. We noted the USCG employee transferred to USCG from another Federal
      agency. Upon transfer, USCG did not input the employee’s FEHB election information into the
      payroll system. As such, no payments were made into the FEHB program on behalf of the
      employee or employer (USCG) for 24 pay periods, resulting in $9,000 of unpaid employer
      contributions. Upon recognition of the issue, USCG attempted to make a correcting contribution;
      however, a clerical error resulted in an actual amount contributed of $93,000.




                                                 3

                            Office of Financial Management
                           Financial Management Comments
                                  September 30, 2013



Recommendations:
We recommend that Coast Guard:
•	 Human Resources (HR) operations staff develop a more robust civilian HR review process
   that incorporates a Payroll Processing Checklist (including Federal benefit
   information/forms) to ensure the timely input and verification of entry on duty document
   processing in applicable HR systems.
•	 Budget staff modify its standard operating procedures to include a more detailed level review
   of the payroll accounting system files in addition to the aggregate/object class review that
   was in place in FY 2013.




                                           4

                                                                                                             Appendix A
                                       Office of Financial Management
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
              NFR
Component               Description                                                     MW        SD        NC        No.
              No.
OFM           13-01     Departmental Standards of Conduct                                                            13-01
                        Non-Compliance      with    Financial   Disclosure     Filing
OFM           13-02                                                                                                  13-02
                        Requirements and Insufficient Departmental Guidance
OFM           13-03     Inadequate Review of Interim Contingent Legal Liability           A
                        Inadequate Preparation and Review of Final Contingent Legal
OFM           13-03a                                                                      A
                        Liabilities
                        Inadequate Review of Component-Submitted Transaction by
OFM           13-04                                                                       A
                        Elimination Pairs Reports
OFM           13-05     Non-Compliance with Federal Employees’ Health Benefits                                       13-03
                        Review of DHS Treasury Information Executive Repository
OFM           13-06                                                                       A
                        Financial Statement and Footnote Crosswalks
                        Inadequate Preparation and Review of Actuarial Federal
OFM           13-07     Employees’ Compensation Act Liability Allocation                  A
                        Worksheet
OFM           13-08     Number not used                                                           Not applicable
                        Lack of Effective Controls over Accounting for Operating
OFM           13-09                                                                       A
                        Leases
OFM           13-10     Undelivered Orders Department-Wide Analysis                       A
OFM           13-11     Insufficient Department-Wide Non-GAAP Analysis                    A
                        Preparation and Review of the Special Purpose Financial
OFM           13-12                                                                     Note 1
                        Statements and Notes


1
 Disposition Legend:
IAR	      Independent Auditors’ Report dated December 11, 2013
FMC	      Financial Management Comment
MW	       Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	       Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	       Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	      Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996




                                                             5

                                                                                                    Appendix A
                                     Office of Financial Management
                       Crosswalk - Financial Management Comments to Active NFRs

                                           September 30, 2013


L       Antideficiency Act, as amended (ADA)

Note 1: This finding was reporting in the Independent Auditors’ Report on the Special-Purpose Financial Statements




                                                        6

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Office of Financial Management

   Chief Financial Officer
   Director, Office of Financial Management
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-75
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
